                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A03050024                                                                       Page 1 of 1
                                                                                 -


        The allegation of non-compliance with NSF requirements for an institutional conflict of interest
        policy was conveyed in a referral from OIG audit, responding to findings contained in an audit
        completed for NSF by                        , LLP in 2002.

                         of                                         ) faxed the updated conflict-of-interest
        (COI) policy for       applicable to NSF gktsThe  . date on this policy is given as May 2003.
        This supplement to policy 1710 was adopted as a result of the findings of an earlier audit and
        finding (see previous case analysis). The genesis of the policy is the NSF Grants Policy Manual,
        and the wording is therefore substantially similar to the GPM.

        The \      policy requires investigators to complete a COI form at the time the proposal is
        submitted, updated annually or as a significant change occurs. The form is reviewed by the
        cognizant academic Dean, the Vice President for Academic Services, and the Grants Accounting
-   -
    -   Coordinator in Business Service,r_whoact to manage or reduce conflicts and report unresolvable          _-*
                                                                                                                      -   .

        issues to NSF OGC. Failure to comply with the disclosure requirements is subject to sanctions
        as specified in the bargaining agreements. Subcontractors and other flow through entities are
        required to adopt compliant COI policies. Records are retained for the NSF-specified period of
        three years beyond termination or completion of the grant.

        The new - - COI policy appears to be in full compliance with NSF requirements. We emailed
        to I-_         suggested changes in wording that clarified the definition of "significant financial
        interest" on the policy page itself, and brought the definition of investigator on the policy and the
        disclosure form itself into concordance.

        Accordingly, this case is closed.
